APPENDICES

1a
APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION

Pursuant to Sixth Circuit I.O.P. 32.1(b)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-6157
ANTONIO L. SAULSBERRY,
Petitioner-Appellant,
v.
RANDY LEE, Warden,
Respondent-Appellee.
Appeal from the United States District Court for the
Western District of Tennessee at Memphis.
No. 2:07-cv-02751—Jon Phipps McCalla, District Judge.
Argued: March 14, 2019
Decided and Filed: August 30, 2019
Before: SUTTON, WHITE, and DONALD,
Circuit Judges.
SUTTON, J., delivered an opinion and the judgment of the court. WHITE, J. (pg. 10), delivered a separate opinion concurring in the judgment. DONALD,
J. (pp. 11–14), delivered a separate dissenting opinion.
OPINION

2a
SUTTON, Circuit Judge. This tale of two trials
began when Tennessee charged Antonio Saulsberry
with (1) premeditated murder and (2) two counts of felony murder. The first jury convicted him of premeditated murder and did not return a verdict on the two
felony murder counts, all consistent with the court’s
instructions to consider the felony murder counts only
if it acquitted Saulsberry of premeditated murder. The
state appellate court reversed Saulsberry’s premeditated murder conviction and remanded for a second trial solely on the two felony murder counts. The second
jury convicted Saulsberry on both felony murder
counts, and he received a life sentence. He filed a federal habeas petition challenging his retrial on double
jeopardy grounds. The district court denied the petition, and we affirm.
I.
In 1995, the manager of a Memphis restaurant was
murdered during a closing-time robbery. Saulsberry
worked at the restaurant and helped to plan the robbery. But he was not there during the robbery or when
the restaurant’s manager was shot and killed.
In 1997, Saulsberry went to trial in state court. In
addition to a robbery count and a conspiracy count, he
faced three counts of first-degree murder—
premeditated murder, murder during a robbery, and
murder during a burglary—all distinct offenses in Tennessee. The trial court forbade the jury from considering the murder counts together. Only if the jury found
Saulsberry not guilty of premeditated murder could it
“proceed to inquire whether [he is] guilty of [either
count of felony murder].” R. 68-13 at 43.
The jury convicted Saulsberry of premeditated
murder as well as robbery and conspiracy. He received

3a
a life sentence for the first conviction plus fifty years
for the others. In line with the court’s instructions, the
jury did not return a verdict on the two felony murder
counts.
The Tennessee Court of Criminal Appeals affirmed
Saulsberry’s robbery and conspiracy convictions. But
it reversed the murder conviction for insufficient evidence. The court remanded the case for a retrial on the
two felony murder counts. State v. Saulsberry, No.
02C01- 9710-CR-00406, 1998 WL 892281, at *6 (Tenn.
Crim. App. Dec. 21, 1998). Saulsberry moved to dismiss the new prosecution on double jeopardy grounds,
but the state courts rejected the argument. In 2010, a
new jury convicted him of both counts of felony murder, and the trial court sentenced him to life in prison.
State v. Saulsberry, No. W2010-01326-CCA-R3-CD,
2011 WL 1327664, at *1 (Tenn. Crim. App. Apr. 7,
2011). Saulsberry’s direct appeal and applications for
state postconviction relief failed.
In 2007, Saulsberry filed an uncounseled § 2254 petition while awaiting retrial in Tennessee, arguing that
the second trial for felony murder would violate the
Double Jeopardy Clause. After more twists and turns,
none relevant here, the district court denied Saulsberry’s amended, counseled petition in 2017. We gave him
permission to appeal and appointed new counsel.
II.
Standard of review. Acting pro se, Saulsberry in
2007 filed a § 2254 petition seeking to halt the second
trial for the two felony murder counts on double jeopardy grounds. That petition creates two modest complications when it comes to our standard of review. The
first is that we review pre-judgment petitions under
the more general provisions of § 2241. The second is

4a
that a jury subsequently convicted him of two counts of
felony murder, and we review post-judgment petitions
under § 2254. That means he was right all along, and
his original § 2254 petition must be treated like any
other § 2254 petition. A brief refresher on a state prisoner’s two roads to habeas relief confirms that Saulsberry’s petition has come full circle.
The broader form of habeas relief is § 2241, which
authorizes federal intervention for state prisoners who
are “in custody in violation of the Constitution or laws
or treaties of the United States.”
28 U.S.C. §
2241(c)(3). The narrower form of relief is § 2254, which
applies to a subset of state prisoners. Out of respect for
the final decisions of state courts, see Williams v. Taylor, 529 U.S. 420, 436 (2000), Congress bars federal
courts from granting habeas relief to state prisoners
who are “in custody pursuant to the judgment of a
State court,” 28 U.S.C. § 2254(b)(1), unless the inmate
clears several additional obstacles, such as a more rigorous standard of review, Felker v. Turpin, 518 U.S.
651, 662 (1996).
Inmates with final state court judgments thus must
travel down the § 2254 road, while pretrial detainees
must travel down the § 2241 path. Phillips v. Court of
Common Pleas, 668 F.3d 804, 809 (6th Cir. 2012). In
reviewing habeas applications, substance trumps form.
If the applicant is a pretrial detainee, we apply the
§ 2241 rules even if he brings a § 2254 application.
Christian v. Wellington, 739 F.3d 294, 297-98 (6th Cir.
2014). And the reverse is true. We apply the § 2254
rules to an individual’s post—judgment application
even if he brings a § 2241 application. All of this explains the numerical gymnastics of this case. At first,
Saulsberry was a beneficiary of the substance-trumpsform doctrine. That’s why we could think of his inaccu-

5a
rately characterized § 2254 petition initially as a § 2241
petition. But what can be beneficial in one direction can
be less so in the other. The same doctrine requires us
to think about his current application as a § 2254 petition because his arguments all seek to remove him from
“custody pursuant to the judgment of a State court.”
28 U.S.C. § 2254(b)(1); see Christian, 739 F.3d at 29798; Dominguez v. Kernan, 906 F.3d 1127, 1137-38 (9th
Cir. 2018).
The reality is that § 2254 is the “exclusive vehicle”
of habeas relief for prisoners in custody under a state
judgment. Walker v. O’Brien, 216 F.3d 626, 633 (7th
Cir. 2000); Dominguez, 906 F.3d at 1135 (“Because
§ 2254 limits the general grant of habeas relief under
§ 2241 it is the exclusive vehicle for a habeas petition by
a state prisoner in custody pursuant to a state court
judgment.” (quotation omitted)); see Bryan R. Means,
Postconviction Remedies § 5:2 (2019) (concluding that
the weight of authority identifies “§ 2254 [as] the exclusive avenue” for state prisoners in this setting). It offers no exception for a prisoner who filed a petition still
pending at the time of his conviction. Dominguez, 906
F.3d at 1137 (“Courts and commentators have recognized that, if the petition is filed by a pre—trial detainee under § 2241 who is subsequently convicted, the federal court may convert the § 2241 petition to a § 2254
petition.” (quotation omitted)); Means, supra (noting
this means AEDPA applies to such a petitioner’s
claims). Any other approach would not make sense.
Saulsberry’s requested relief targets his state judgment in just the same way as if it preceded his petition.
Every circuit that has considered the question agrees
that it follows from the text of § 2254 and this practical
reality of prisoners’ challenges that § 2254 governs a
pending § 2241 petition in the event of a conviction.

6a
See, e.g., Hartfield v. Osborne, 808 F.3d 1066, 1071-72
(5th Cir. 2015); Yellowbear v. Wyo. Att’y Gen., 525 F.3d
921, 924 (10th Cir. 2008); see also Jackson v. Coalter,
337 F.3d 74, 78-79 (1st Cir. 2003); Dominguez, 906 F.3d
at 1137-38.
As a result, we must apply the deferential standard
of review established by the Antiterrorism and Effective Death Penalty Act. We thus measure the state
court’s decision against holdings of the United States
Supreme Court. White v. Woodall, 572 U.S. 415, 419
(2014). And we thus may grant relief only if the decision was “contrary to, or involved an unreasonable application of” those rules. 28 U.S.C. § 2254(d)(1). That
doesn’t mean “merely wrong” or even “clear error.”
White, 572 U.S. at 419. Only an “objectively unreasonable” mistake, id., one “so lacking in justification that
there was an error well understood and comprehended
in existing law beyond any possibility for fairminded
disagreement,” slips through the needle’s eye of § 2254,
Harrington v. Richter, 562 U.S. 86, 103 (2011).
Saulsberry nonetheless maintains that we should
treat his petition as a § 2241 challenge. In support, he
offers an unpublished decision of this court that did not
apply § 2254 rules to a pretrial petition despite the petitioner’s intervening conviction. See Smith v. Coleman,
521 F. App’x 444, 447 & n.2 (6th Cir. 2013). But the
cases on which Smith briefly relied, see Dickerson v.
Louisiana, 816 F.2d 220 (5th Cir. 1987); Stow v. Murashige, 389 F.3d 880 (9th Cir. 2004), “do not address”
that point. Smith, 521 F. App’x at 452 (White, J., concurring). Further, they arose in circuits that have since
reached the opposite conclusion, see Hartfield, 808 F.3d
at 1071-72 (holding that § 2254 governs a pending
§ 2241 petition in the event of a conviction);
Dominguez, 906 F.3d at 1137-38 (holding that § 2241

7a
governs a pending § 2254 petition in the event of a vacated judgment).
Carafas v. LaVallee does not alter this conclusion
either. 391 U.S. 234 (1968). It stands for the idea that a
prisoner’s release does not moot a pending habeas petition. But Saulsberry remains in custody. No question
of mootness exists. And Carafas does not remotely say
(or hold) that we should treat a petition attacking a final state judgment as though it challenged pretrial detention.
Double jeopardy. Saulsberry contends that, by
convicting him of premeditated murder and remaining
silent on the two counts of felony murder, the first jury
impliedly acquitted him of those counts. In rejecting
this argument, the state court reasoned that a jury’s
silence on counts that the jury instructions precluded it
from reaching does not amount to acquittal, implied or
otherwise. See, e.g., State v. Madkins, 989 S.W.2d 697,
699 (Tenn. 1999).
That conclusion is objectively reasonable. Here’s
what we know about the clearly established law. The
Double Jeopardy Clause forbids the State from twice
putting a person “in jeopardy” for the same offense.
U.S. Const. amend. V. A person is “in jeopardy” as to
each charged offense when the trial court empanels and
swears the jury. United States v. Martin Linen Supply
Co., 430 U.S. 564, 569 (1977). Once a defendant’s first
stint in jeopardy ends, the Constitution bars a second
stint for the same crimes.
Jeopardy ends in many ways. It ends when the jury convicts a defendant and his appeal fails. Price v.
Georgia, 398 U.S. 323, 326 (1970). It ends after an acquittal. North Carolina v. Pearce, 395 U.S. 711, 717
(1969). And it ends when, after a mistrial, “a trial is

8a
aborted before it is completed”—unless “manifest necessity” justifies stopping the proceedings or the defendant consents. Arizona v. Washington, 434 U.S.
497, 503-05 (1978). In each case, the Double Jeopardy
Clause bars the State from a do—over for the same
crime.
Those are the general principles. Here are the specific principles about implied acquittals.
Acquittals that a jury does not render through a
formal verdict generally turn on form and substance.
Blueford v. Arkansas, 566 U.S. 599, 606-08 (2012).
Form: An acquittal is “a final resolution” of deliberations. Id. at 606. Substance: An acquittal in essence is
a “ruling” by the factfinder that, “whatever its label,
actually represents a resolution … of some or all of the
factual elements of the offense charged.” Martin Linen
Supply Co., 430 U.S. at 571.
Several breeds of implied acquittals exist under
these principles. One type stems from a conviction on
“lesser included offenses” when the court charges the
jury to consider all of the offenses. Ohio v. Johnson,
467 U.S. 493, 501-02 (1984). When a jury passes over
the greater offense and selects its lesser incidents, it
impliedly acquits the defendant of the greater offense.
Price, 398 U.S. at 329.
An implied acquittal likewise arises when a jury
charged to consider several counts is instructed it may
convict on only one. Jolly v. United States, 170 U.S.
402, 408 (1898). The jury’s choice of one count over the
other, it’s “legitimate” to assume, Green v. United
States, 355 U.S. 184, 191 (1957), amounts to a “resolution” in the defendant’s favor on the alternative count,
Blueford, 566 U.S. at 606.

9a
Gauged by this rule and these precedents, Saulsberry’s first jury did not grant an implied acquittal
with respect to the two felony murder counts. This was
not a case in which the jury remained silent in the face
of a free choice to convict on the felony murder counts.
The court’s instructions forbade the jury from considering these other counts. We must presume juries follow
instructions, Richardson v. Marsh, 481 U.S. 200, 211
(1987), and Saulsberry has not argued that his jury
failed to do so. In a case in which the jury never considered whether the government had proven its case as
to the two other felony murder counts, no cognizable
double jeopardy claim arises.
Saulsberry’s case is at least one material step removed from each of the Supreme Court’s impliedacquittal cases. In the greater-lesser-offense cases, the
Court infers a favorable “resolution” on one count from
the jury’s verdict on others, based on the counts’ relationship to each other and the fact that the jury considered them alongside each other. Price, 398 U.S. at 329.
In the cases in which the jury must consider all of the
counts but may convict on only one, its silence on the
alternative counts implies a resolution in the defendant’s favor. Jolly, 170 U.S. at 408. Neither set of cases
applies here. In this instance, a case in which the jury
could not consider anything but the first count, it’s not
possible to infer a “final resolution” in Saulsberry’s favor of the other counts. Saulsberry’s jury did not implicitly or explicitly acquit him of felony murder.
Absent a justified mistrial, Saulsberry counters,
jeopardy must terminate whenever the trial court
sends the jury home without rendering a verdict on a
count—regardless of whether the jury considered the
count, could consider the count, or resolved it in the defendant’s favor. He points to Green v. United States as

10a
supporting this rule. 355 U.S. 184. There, the Court
inferred an acquittal from the jury’s silence on a count,
pointing to the fact that the jury convicted on the lesser
included count. Under these circumstances, the Court
first reasoned, it is “legitimate” to assume that “for one
reason or another” the jury “refused” to convict Green
on the greater offense. Id. at 190-91.
On top of that, the Court offered a second reason,
on which Saulsberry hangs his hat and most of his case.
The jury had “a full opportunity to return a verdict” on
the greater offense, the Court said, and yet was discharged without rendering one, all without Green’s
consent or any “extraordinary circumstances” to justify
that ending. Id. at 191. Saulsberry takes that language
and turns it into this rule: Absent a permissible mistrial, jeopardy terminates with a jury’s silence, no matter
what. As an example of this rule in action, Saulsberry
offers Dealy v. United States, in which the Court found
the jury’s silence on a count was “doubtless equivalent
to a verdict of not guilty” despite the possibility that
the jury simply “overlooked” the count. 152 U.S. 539,
542 (1894).
Saulsberry reads too much into Green and Dealy.
They confirm only what we already know: that a jury’s
silence can equal acquittal when the circumstances
make it fair to infer the jury as a matter of intent “refused” to convict, Green, 355 U.S. at 191, and “when the
first jury ‘was given a full opportunity to return a verdict’ on that charge and instead reached a verdict on
the lesser charge,” whatever it intended, Price, 398
U.S. at 329 (quoting Green, 355 U.S. at 191). But there
is a considerable difference in altitude between this
point and the rule that Saulsberry insists Green
“squarely hold[s]”—that silence always equals acquittal
even where the jury did not have any opportunity to

11a
consider a count at all. Reply Br. 9. Every time the
Supreme Court has deemed the jury’s silence to constitute an acquittal, including Green and Dealy, the jury
was directed to and had the “full opportunity” to make
a choice. Green, 355 U.S. at 191. That choice gives the
jury’s silence meaning. But Saulsberry’s jury had no
choice as to the felony murder counts. All in all, the
Tennessee court’s refusal to find an implied acquittal in
this circumstance hardly constituted “an error well understood and comprehended in existing law beyond any
possibility for fairminded disagreement.” Richter, 562
U.S. at 103.
Saulsberry adds that two of our cases support him.
It is of course U.S. Supreme Court case law that matters in the “existing law” inquiry. But he is mistaken
anyway. Saylor v. Cornelius, 845 F.2d 1401 (6th Cir.
1988), is a pre-AEDPA case that, we said at the time,
fell in between relevant principles from the Supreme
Court and, we have said since, “is limited by the unusual situation we were addressing in that case.” United
States v. Davis, 873 F.2d 900, 906 (6th Cir. 1989). Saylor went to trial on a single count that encompassed
several distinct legal theories. The prosecution did not
object when the trial court inexplicably instructed the
jury on just one theory. We did not allow retrial on one
of the alternatives, troubled that the prosecution
seemed to have it both ways: limiting the jury to one
theory, and so avoiding any risk of acquittal on the alternatives, while retaining the ability to seek alternative instructions at any time, as well as the option of
recycling the other theories for retrial. No “manipulation” of any kind was at work in Saulsberry’s case,
where the government simply went to the jury on every count, and the jury proceeded to consider them sequentially. Saylor, 845 F.2d at 1408.

12a
Terry v. Potter, 111 F.3d 454 (6th Cir. 1997), in
truth hurts Saulsberry’s argument. It is a textbook
implied-acquittal case in which the jury “had ample opportunity” to render a verdict on alternative, disjunctive counts, chose one, and (we said) impliedly acquitted on the alternative. Id. at 458. That takes us back to
the key point: Saulsberry’s jury had no chance to render a verdict on the felony murder counts.
When a trial court interrupts a trial and declares a
mistrial, Saulsberry submits, the jury often does not
have a chance to consider any charges, and yet the Supreme Court has recognized that jeopardy terminates
absent manifest necessity for the mistrial. True
enough. But there was no mistrial here. That jeopardy
can end by another means in another setting does not
show an implied acquittal here. It simply leaves the
state court’s decision as one reasonable way, even if not
the only reasonable way, of applying these precedents.
Under AEDPA, that’s all that matters.
We affirm.

13a

CONCURRING IN THE JUDGMENT
HELENE N. WHITE, Circuit Judge, concurring
in the judgment. I agree that the weight of authority
supports that after the entry of the state—court judgment against him on retrial, Saulsberry’s petition is
subject to AEDPA deference under 18 U.S.C. § 2254.1
There is no need to revisit or apply this court’s decisions in Saylor v. Cornelius, 845 F.2d 1401 (6th Cir.
1988) and Terry v. Potter, 111 F.3d 454 (6th Cir. 1997)
because, as the lead opinion acknowledges, AEDPA requires that we look only to decisions of the Supreme
Court. That is particularly true here because Respondent has not attempted to distinguish either case.
I agree that given the trial court’s instructions to
the jury, the jury’s failure to render a verdict on the
two felony—murder charges does not imply that it acquitted Saulsberry of these charges. However, double—jeopardy concerns are raised in circumstances
other than where there is an implied acquittal. A defendant has a recognized interest in having his fate decided by the jury first impaneled to try him, absent
manifest necessity. See, e.g., Terry, 111 F.3d at 458
(holding that “[r]etrying [the petitioner] would violate
his ‘valued right to have his trial completed by a particular tribunal’” (quoting Crist v. Bretz, 437 U.S. 28, 36
(1978))). Still, the Supreme Court has not clearly addressed the circumstances presented here. I therefore
agree that AEDPA requires that we affirm.
1

I note that there is no claim that Tennessee stalled the district-court proceedings and rushed the retrial to gain the advantage of AEDPA’S deference to state convictions.

14a

DISSENT
BERNICE BOUIE DONALD, Circuit Judge, dissenting. Antonio Saulsberry was charged with felony
murder; a jury was empaneled to hear his case; the
prosecution, through the course of an entire trial, put
on evidence in its attempt to prove that he committed
felony murder; and the court asked the jury to review
that evidence, deliberate, and determine whether he
was guilty of felony murder. The jury returned a guilty
verdict for a different crime, and then the court dismissed the jury. Because “the jury was dismissed
without returning any express verdict on [felony murder] and without [Mr. Saulsberry’s] consent[,]” Green v.
United States, 355 U.S. 184, 190 (1957), Supreme Court
precedent is clear that Mr. Saulsberry cannot be tried
again on the same felony-murder charge. For that reason, I dissent.
As an initial matter, I do not agree that the state
should receive AEDPA deference in this case. We provide AEDPA deference to state—court judgments because those judgments are presumed to be valid. Eric
Johnson, An Analysis of the Antiterrorism and Effective Death Penalty Act in Relation to State Administrative Orders: the State Court Judgment as the Genesis of Custody, 29 New Eng. J. on Crim. & Civ. Confinement 153, 171-72 (2003). Such a presumption cannot
exist where the conviction was obtained via a trial that
was, itself, being challenged as a violation of the defendant’s double-jeopardy rights. See Christian v. Wellington, 739 F.3d 294, 297 (6th Cir. 2014) (“A claim of
double jeopardy is one such [habeas claim that may be
filed by a pretrial detainee] because it is not only a de-

15a
fense against being punished twice for the same offense, but also a defense against being subjected to a
second trial—a right we cannot vindicate after a trial is
complete, no matter the outcome.”). Mr. Saulsberry did
what he was supposed to do at the time he was supposed to do it: file a habeas petition as a pretrial detainee challenging his detention. See id. The fact that
it took longer for this Court to adjudicate that petition
than it took for the state to obtain a conviction does not
diminish Mr. Saulsberry’s rights. Smith v. Coleman,
521 F. App’x 444, 447 n.2 (6th Cir. 2013) (“What determines [the] standard of review is the nature of the
claims raised and the time the petitioner filed his petition, not the present status of the case pending against
him.” (internal citations and quotation marks omitted)); see also Glover v. Gillespie, 502 F. App’x 661, 662
(9th Cir. 2012) (“Because Glover properly filed this petition under 28 U.S.C. § 2241 in the first instance, that
section continues to apply notwithstanding his subsequent guilty plea.”)
Nevertheless, even if we were to provide AEDPA
deference to his claim, Mr. Saulsberry should still prevail. The Double Jeopardy Clause prohibits the state
from “twice put[ting] [any person] in jeopardy of life or
limb” for “the same offence.” U.S. Const. amend. V; see
also Benton v. Maryland, 395 U.S. 784, 794 (1969) (the
Double Jeopardy Clause applies to states through the
Fourteenth Amendment). It is a protection that stands
on strong policy:
[T]he underlying idea [of the Double Jeopardy
Clause], one that is deeply ingrained in at least
the Anglo-American system of jurisprudence,
is that the State with all its resources and power should not be allowed to make repeated attempts to convict an individual for an alleged

16a
offense, thereby subjecting him to embarrassment, expense and ordeal and compelling him
to live in a continuing state of anxiety and insecurity, as well as enhancing the possibility that
even though innocent he may be found guilty.
Id. at 795-96 (quotation marks and citation omitted).
To effectuate that policy, the Supreme Court has
held—in categorical terms—that “a defendant is placed
in jeopardy once he is put to trial before a jury so that if
the jury is discharged without his consent he cannot be
tried again.” Green, 355 U.S. at 188 (citation omitted).
The exception to this rule, as noted in Green, is when
“unforeseeable circumstances arise during the first trial making its completion impossible, such as the failure
of a jury to agree on a verdict.” Id. (quotation marks
and citation omitted). Applying Green to this case, sequential jury instructions do not amount to an extraordinary circumstance making the completion of Mr.
Saulsberry’s first trial impossible.1 Mr. Saulsberry
should not have been put through the ordeal of a second
trial on the same charges.
The majority disagrees. It contends that applying
Green in such a way “reads too much into Green” because that case really stands for the proposition that a
jury must have rendered an acquittal, either implicitly
or explicitly, for jeopardy to end. Maj. Op. at 9. The
problem for the majority is that Green explicitly disavows its interpretation of the case:

1

This particularly true as the state supreme court had previously “urged” its trial courts not to use sequential jury instructions. State v. Howard, 30 S.W.3d 271, 275 n.4, 277-278 (Tenn.
2000).

17a
Green was in direct peril of being convicted and
punished for first degree murder at his first
trial. He was forced to run the gantlet once on
that charge and the jury refused to convict him.
When given the choice between finding him
guilty of either first or second degree murder it
chose the latter. In this situation the great majority of cases in this country have regarded
the jury’s verdict as an implicit acquittal on the
charge of first degree murder. But the result

in this case need not rest alone on the assumption, which we believe legitimate, that
the jury for one reason or another acquitted Green of murder in the first degree.
For here, the jury was dismissed without returning any express verdict on that charge and
without Green’s consent. Yet it was given a
full opportunity to return a verdict and no extraordinary circumstances appeared which
prevented it from doing so. Therefore it seems
clear, under established principles of former
jeopardy, that Green’s jeopardy for first degree
murder came to an end when the jury was discharged so that he could not be retried for that
offense.
355 U.S. at 190-91. In the Supreme Court’s own words,
Green does not require an acquittal, implicit or otherwise, for jeopardy to end; rather, jeopardy ended when
the jury “was given a full opportunity to return a verdict and no extraordinary circumstances appeared
which prevented it from doing so.” Id. The majority’s
take on Green is thus indefensible.
As for Mr. Saulsberry’s specific case, the majority
finds that jeopardy did not end because the jury “had
no chance to render a verdict on the felony murder

18a
counts.” Maj. Opinion at 10. That finding is impossible
to square with the facts of this case: the jury was empaneled; the prosecution marshaled its resources and
presented its evidence to prove that Mr. Saulsberry
had committed felony murder; and the jury was sent to
deliberate whether Mr. Saulsberry was guilty of felony
murder. Just because the jury was told not to announce a verdict on felony murder if they found Mr.
Saulsberry guilty of a different charge does not mean
that the jury did not have a “chance” to find Mr. Saulsberry guilty of felony murder. Indeed, the Supreme
Court has been clear that jeopardy ends when the court
dismisses the jury without sufficient reason after the
jury was empaneled, Arizona v. Washington, 434 U.S.
497, 503-05 (1978), a fortiori, jeopardy must end after
the jury actually deliberates the charge, see Wade v.
Hunter, 336 U.S. 684, 688 (1949) (explaining that a defendant has a “valued right to have his trial completed
by a particular tribunal” (emphasis added)).
The practical application of the majority’s decision
further illuminates its error. The Supreme Court has
made clear that any retrial of an accused “increases the
financial and emotional burden on the accused, prolongs
the period in which he is stigmatized by an unresolved
accusation of wrongdoing, and may even enhance the
risk that an innocent defendant may be convicted.” Arizona, 434 U.S. at 503-04 (footnotes omitted). “Consequently, … the prosecutor is entitled to one, and only
one, opportunity to require an accused to stand trial.”
Id. at 505. Yet, under today’s decision, prosecutors who
wish to have a second, third, fourth, etc. bite at the apple may simply request sequential jury instructions. If
they lose on the most serious alleged offense? No problem; they are free to try again and, possibly, again and
again. The Constitution clearly demands more.

19a
The jury was given a full opportunity to return a
verdict against Mr. Saulsberry for felony murder, but
they were dismissed without doing so. A sequential
jury instruction given at the discretion of the trial
judge is not an extraordinary circumstance that required such an outcome. The Constitution therefore
prohibits the state from having put Mr. Saulsberry
through another trial on the same charge. I dissent.

21a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
No. 07-cv-2751-JPM-dkv
ANTONIO SAULSBERRY,
Plaintiff,
v.
RANDY LEE, Warden of Northeast Correctional
Complex, Tennessee Department of Corrections,
Defendant.
Filed September 21, 2017
ORDER DENYING PETITION PURUSANT TO
28 U.S.C. § 2254, DENYING A CERTIFICATE OF
APPEALABILITY, AND CERTIFYING THAT AN
APPEAL WOULD NOT BE TAKEN IN GOOD FAITH
The instant case raises the issue of whether jury silence as to one alternative means of a state crime constitutes an implicit acquittal for double jeopardy purposes. Petitioner Antonio L. Saulsberry, Tennessee
Department of Correction prisoner number 164034, an
inmate at the West Tennessee State Penitentiary in
Henning, Tennessee, filed a pro se petition pursuant to
28 U.S.C. § 2254 on November 5, 2007. (ECF No. 1.)
With leave of Court, Saulsberry filed an amended Petition for a Writ of Habeas Corpus Pursuant to 28 U.S.C.
§ 2254 on January 13, 2017. (ECF No. 69.) Respondent

22a
filed a timely response in opposition on February 13,
2017. (ECF No. 70.) Saulsberry filed a timely reply on
March 15, 2017. (ECF No. 73.) For the reasons stated
below, the Court DENIES Saulsberry’s § 2254 Petition, DENIES a certificate of appealability, and CERTIFIES that an appeal would not be taken in good
faith.
I.

BACKGROUND
A. State Court and Prior Habeas Corpus Procedural History

On February 14, 1997, after a jury trial in the Shelby County Criminal Court, Saulsberry and a codefendant, Franklin C. Howard, were convicted of premeditated first degree murder, especially aggravated robbery, and conspiracy to commit aggravated robbery.
State v. Saulsberry, No. 02C019710CR00406, 1998 WL
892281 (Tenn. Crim. App. Dec. 21, 1998). The defendants were indicted for first degree murder, murder
committed during the perpetration of a robbery, and
murder committed during the perpetration of a burglary. Id. at *1. The jury was instructed to cease deliberating upon finding the defendants guilty of premeditated murder, so the jury did not render any verdict on
the other homicide counts. Id. at *4 n.4. Saulsberry
was sentenced to life imprisonment on the first degree
murder count. Following a sentencing hearing, the trial court sentenced Saulsberry as a Range II offender to
forty (40) years for especially aggravated robbery and
ten (10) years for conspiracy, with all sentences, including the sentence of life imprisonment, to run consecutively. The Tennessee Court of Criminal Appeals affirmed Saulsberry’s convictions and sentences for especially aggravated robbery and conspiracy to commit especially aggravated robbery, but reversed his first de-

23a
gree murder conviction for insufficient evidence and
remanded for a new trial on the charge of felony murder. Id. at *4. Saulsberry did not appeal to the Tennessee Supreme Court.
On April 6, 2000, before a new trial commenced on
the felony murder charge, Saulsberry filed a state postconviction petition attacking his robbery and conspiracy convictions. The trial court denied the postconviction petition, and the Tennessee Court of Criminal Appeals dismissed the appeal for lack of jurisdiction, finding that the petition had been filed outside of
the one-year state statute of limitations. Saulsberry v.
State, No. W2002-02538-CCA-R3-PC, 2004 WL 239767
(Tenn. Crim. App. Feb. 6, 2004).
On September 17, 2004, Saulsberry filed a federal
petition for a writ of habeas corpus, pursuant to
28 U.S.C. § 2254, challenging his robbery and conspiracy convictions. The district court denied the petition as
untimely. Saulsberry v. Mills, No. 2:04-cv-02736-SHMtmp (W.D. Tenn.).
Meanwhile, in December 2004, Saulsberry filed a
Motion to Dismiss Prosecution, arguing that a re-trial
on felony murder charges would violate state and federal double jeopardy provisions. The trial court denied
the motion, but granted an interlocutory appeal. The
Tennessee Court of Criminal Appeals affirmed. State v.
Saulsberry, No. W2005-00316-CCAR9CD, 2006 WL
2596771 (Tenn. Crim. App. Sept. 11, 2006). The Tennessee Supreme Court denied leave to appeal on January 29, 2007. Id.
On April 6, 2007, Saulsberry filed a pleading in the
Sixth Circuit Court of Appeals titled “Motion for Permission to Appeal from Judgment Rendered September 11, 2006, Pursuant to Federal Rules of Civil Proce-

24a
dure 60(b).” The pleading was construed as an application for permission to file a second or successive habeas
petition, pursuant to 28 U.S.C. § 2244. The Sixth Circuit granted the application so that Saulsberry could
raise an allegation that his re-trial for felony murder
would violate the Double Jeopardy Clause. In re
Saulsberry, No. 07-5570 (6th Cir. Nov. 1, 2007) (unpublished).
The action was transferred to the district court and
counsel was appointed. Saulsberry v. State of Tennessee, No. 2:07-cv-02751-JPM-dkv (W.D. Tenn.).
B. Petitioner’s Federal Habeas Corpus
Petitioner filed his petition on November 5, 2007.
(ECF No. 1.) On May 7, 2009, Saulsberry moved to
hold his habeas petition in abeyance, explaining that, on
February 9, 2009, the Criminal Court of Tennessee held
the first of several hearings regarding Saulsberry’s retrial on the charge of felony murder and that, on April
30, 2009, the state trial court set the matter for trial on
January 25, 2010. (ECF No. 18.) Saulsberry requested
that the petition be held in abeyance until he could fully
exhaust his state court remedies. (Id.) On May 20 and
27, 2009, the Court entered orders staying the case,
staying the respondent’s duty to respond, and directing
counsel to provide status reports regarding exhaustion
and to file a motion to proceed when the proceedings
had concluded. (ECF No. 20.)
Because Saulsberry failed to file a Motion to Proceed by the Court’s imposed deadline, on June 18, 2013,
the Court dismissed Saulsberry’s § 2254 petition for
writ of habeas corpus for failure to prosecute. (ECF
No. 36.) Judgment was entered the same day. (ECF
No. 37.) Saulsberry filed a notice of appeal on June 24,

25a
2013. (ECF No. 39.) On September 25, 2013, the Sixth
Circuit asked for a judgment regarding a certificate of
appealability. (See ECF No. 42.) The Court denied a
certificate of appealability on September 30, 2013.
(ECF No. 43.)
On April 22, 2014, the Sixth Circuit granted Saulsberry’s application for a certificate of appealability “on
the issue of whether the district court’s dismissal of
Saulsberry’s petition was improper in light of the uncertainty of his exhaustion of state remedies and appointed counsel’s failure to respond to the court’s orders.” (ECF No. 47 at 5.) On August 12, 2015, the
Sixth Circuit reversed the judgment of the district
court and remanded the instant case for further proceedings consisted with its opinion. (ECF No. 49.) The
mandate issued on September 3, 2015. (ECF No. 50.)
On July 28, 2016, the Court appointed Robert Parris as counsel for Saulsberry. (ECF No. 55.)
On September 29, 2016, the Court held an in-person
status conference. (Min. Entry, ECF No. 66.) The
Court entered a Scheduling Order following the conference, setting out dates for the filing of state trial transcripts, Saulsberry’s amended petition, and Respondent’s response. (ECF No. 67.)
Saulsberry filed a timely amended Petition for a
Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2254 on
January 13, 2017. (ECF No. 69.) Respondent filed a
timely response in opposition on February 13, 2017.
(ECF No. 70.) Saulsberry filed a timely reply on March
15, 2017. (ECF No. 73.)

26a
II. LEGAL STANDARD
A. 28 U.S.C. § 2254
The standard for reviewing applications for the
writ of habeas corpus is set forth in the Antiterrorism
and Effective Death Penalty Act (“AEDPA”), 28
U.S.C. § 2254(d), which restricts federal court authority
to remedy state-court errors to instances of “extreme
malfunction[ ]” of the state process, as opposed to “ordinary error correction through appeal.” Harrington v.
Richter, 131 S.Ct. 770, 786 (2011). This section states:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.
28 U.S.C. § 2254(d). In other words, a federal court is
bound by a state court’s adjudication of a petitioner’s
claims unless the state court’s decision was contrary to
or involved an unreasonable application of clearly established federal law. Harris v. Stovall, 212 F.3d 940,
943 (6th Cir. 2000); Franklin v. Francis, 144 F.3d 429,
433 (6th Cir. 1998). The clause “clearly established
Federal law” refers to “the holdings, as opposed to the
dicta, of [the Supreme] Court’s decisions as of the time

27a
of the relevant state-court decision” Williams v. Taylor, 529 U.S. 362, 410 (2000). The holdings of circuit
court cases interpreting Supreme Court precedent are
not clearly established federal law for purposes of a
§ 2254 habeas petitions. Renico v. Lett, 130 S.Ct. 1855,
1865-66 (2010). Further, the reviewing federal court
must presume the correctness of state court factual determinations, and the petitioner has the burden of rebutting that presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); see also Cremeans v.
Chapleau, 62 F.3d 167, 169 (6th Cir. 1995) (“We give
complete deference to state court findings unless they
are clearly erroneous.”), abrogated on other grounds by
Thompson v. Keohane, 516 U.S. 99, 111 (1995).
The United States Supreme Court has explained
the proper application of the “contrary to” clause as follows:
A state-court decision will certainly be contrary to [the Supreme Court’s] clearly established
precedent if the state court applies a rule that
contradicts the governing law set forth in our
cases. . . . A state-court decision will also be
contrary to this Court’s clearly established
precedent if the state court confronts a set of
facts that are materially indistinguishable from
a decision of this Court and nevertheless arrives at a result different from [this Court’s]
precedent.
Williams, 529 U.S. at 405-06 (citation omitted).
With respect to the “unreasonable application”
clause of § 2254(d)(1), the Supreme Court has held that
a federal court should analyze a claim for habeas corpus
relief under the “unreasonable application” clause when
“a state-court decision unreasonably applies the law of

28a
this Court to the facts of a prisoner’s case.” Williams,
529 U.S. at 409. The Court defined “unreasonable application” as follows:
[A] federal habeas court making the “unreasonable application” inquiry should ask whether the state court’s application of clearly established federal law was objectively unreasonable. . . .
. . . . [A]n unreasonable application of federal
law is different from an incorrect application of
federal law. . . . Under § 2254(d)(1)’s “unreasonable application” clause, then, a federal habeas court may not issue the writ simply because that court concludes in its independent
judgment that the relevant state-court decision
applied clearly established federal law erroneously or incorrectly. Rather, that application
must also be unreasonable.
Id. at 409-11 (emphasis original).
In sum, the requirements of the AEDPA “create an
independent, high standard to be met before a federal
court may issue a writ of habeas corpus to set aside
state-court rulings.” Uttecht v. Brown, 551 U.S. 1, 10
(2007) (citations omitted). The standard, by design, “is
difficult to meet,” Harrington v. Richter, 131 S.Ct. 770
(2011), because the purpose of the habeas petition is to
“‘guard against extreme malfunctions in the state criminal justice systems,’ not [to act as] a substitute for ordinary error correction” available by appeal. Id. (citation omitted). Thus, the AEDPA “imposes a ‘highly
deferential standard for evaluating state-court rulings’
and ‘demands that state court decisions be given the
benefit of the doubt.’” Renico v. Lett, 130 S.Ct. 1855,
1862 (internal citations omitted).

29a
B. Double Jeopardy
“The Double Jeopardy Clause of the Fifth Amendment protects a defendant in a criminal proceeding
against multiple punishments or repeated prosecutions
for the same offense.” United States v. Dinitz, 424 U.S.
600, 606 (1976); see also U.S. Const. amend. V (“[N]or
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb.”). Thus, the protections against double jeopardy bar a successive prosecution on the “same” offense of which a defendant has
been previously acquitted or convicted as well as relitigation of an issue that has been resolved in the defendant’s favor in a prior prosecution. Brown v. Ohio, 432
U.S. 161, 165–66 (1977); Ashe v. Swenson, 397 U.S. 436,
443 (1970); Blockburger v. United States, 284 U.S. 299,
304 (1932). However, “the protection of the Double
Jeopardy Clause by its terms applies only if there has
been some event, such as an acquittal, which terminates the original jeopardy.” Richardson v. United
States, 468 U.S. 317, 325 (1984).
C. Amending § 2254 Petition with Time-Barred
Claims
The AEDPA created a new limitations period for
petitions for the writ of habeas corpus brought pursuant to 28 U.S.C. § 2254:
A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a
person in custody pursuant to the judgment of
a State court. The limitation period shall run
from the latest of . . . the date on which the
judgment became final by the conclusion of direct review or the expiration of the time for
seeking such review. . . .

30a
28 U.S.C. § 2244(d)(1)(A). Additionally, “[t]he time
during which a properly filed application for State postconviction or other collateral review with respect to the
pertinent judgment or claim is pending shall not be
counted toward any period of limitation under this subsection.” 28 U.S.C. § 2244(d)(2).
Although the one-year period of limitation is tolled
during the time in which a properly filed application for
state post-conviction relief is pending, see Artuz v.
Bennett, 531 U.S. 4, 8-9 (2000) (defining when an application is “properly filed” under 28 U.S.C. § 2244(d)(2)),
the time during which a federal habeas petition is pending does not toll the one-year limitation period. See
Duncan v. Walker, 533 U.S. 167, 121 (2001) (holding
that an application for federal habeas corpus review
does not toll the one-year limitation period under
§ 2244(d)(2)). Alternatively, the statute may be equitably tolled upon a showing, among other things, that
“some extraordinary circumstance stood in [petitioner’s] way.” Pace v. DiGuglielmo, 544 U.S. 408, 418
(2005).
When amending a petition in a habeas proceeding,
the amendment is subject to Federal Rule of Civil Procedure 15. Mayle v. Felix, 545 U.S. 644, 655 (2005).
Accordingly, if the amended petition adds time-barred
claims, “[s]o long as the original and amended petitions
state claims that are tied to a common core of operative
facts, relation back will be in order.” Id.
III. ANALYSIS
A. Double Jeopardy
Saulsberry does not argue that retrial is barred because felony murder is the “same offense” as premeditated murder. See Blockburger, 284 U.S. at 304. The

31a
Blockburger test asks “whether each offense contains
an element not contained in the other; if not, they are
the ‘same offense’ and double jeopardy bars additional
punishment and successive prosecution.” United States
v. Dixon, 509 U.S. 688, 696 (1993).
Instead, Saulsberry asserts that his “convictions
and sentences are invalid and should be vacated because he was in jeopardy of conviction for the two
counts of [felony] murder for which he was tried on July 28th, 1997 yielding no verdicts as to those counts.”
(ECF No. 69 at PageID 3686.) Saulsberry specifically
argues that “the jury’s silence as to the second and
third [felony] murder counts are implied acquittals and
retrial of those counts violate Petitioner’s Fifth
Amendment right against double jeopardy.” (Id. at
PageIDs 3686-87.) Respondent argues “petitioner cannot demonstrate that the state court’s rejection of his
double-jeopardy claim involves an unreasonable application of clearly established federal law because there
is no clearly established federal law, in the form of
United States Supreme Court authority, governing the
scenario presented.” (ECF No. 72 at PageID 3710.)
The Court agrees with Respondent.
An implied acquittal “results from a guilty verdict
on lesser included offenses rendered by a jury charged
to consider both greater and lesser included offenses.”
Ohio v. Johnson, 467 U.S. 493 (1984). More specifically,
the Supreme Court has held that an implicit acquittal
can be determined by jury silence; for example, when a
jury is instructed to find a defendant guilty of either
first or second-degree murder, a defendant will be implicitly acquitted of first degree murder upon a finding
of guilt for second-degree murder. Green v. United
States, 355 U.S. 184, 190 (1957); Price v. Georgia, 398
U.S. 323 (1970). But there is no Supreme Court author-

32a
ity and little clear federal authority concerning the
question at bar: whether jury silence as to an alternative means constitutes an implicit acquittal for double
jeopardy purposes. Compare Terry v. Potter, 111 F.3d
454, 458 (6th Cir. 1997) (holding that the Double Jeopardy Clause prohibited a second trial against defendant
for intentional murder, after the appellate court reversed his conviction on wanton murder of the same
victim and the jury had left blank the verdict form on
the issue of intentional murder); with United States v.
Ham, 58 F.3d 78, 85 (4th Cir. 1995) (holding that “jury’s
failure to check a predicate act does not constitute an
implied acquittal of that act” for double jeopardy purposes); United States ex rel. Jackson v. Follette, 462
F.2d 1041, 1045–46 (2d Cir.), cert. denied sub nom.
Jackson v. Follette, 409 U.S. 1045 (1972) (finding defendant at first trial was charged with both felonymurder and premeditated murder, where jury was instructed to return a verdict on only one of the charges,
where it found defendant guilty of premeditated murder, and where, following an appeal and reversal on habeas corpus, defendant was retried, he was not subjected to double jeopardy by being retried on the felonymurder charge because jury’s silence on felony-murder
charge in first trial did not constitute implied acquittal).
Nor is there clarity among state courts. Com. v. Carlino, 449 Mass. 71, 79, 865 N.E.2d 767, 774 (2007) (collecting cases).
In the instant case, it is undisputed that the jury
received a sequential jury instruction. The instruction
explained to the jury members to first determine if
Saulsberry and co-defendants were guilty of premeditated murder, and if they were not guilty of premeditated murder the jury was told to “proceed to inquire
whether or not” the defendants were guilty of the felo-

33a
ny murder charges. (Jury Charge, ECF No. 68-13 at
PageID 1420.) The jury found Saulsberry guilty of
premeditated murder and was silent as to the felony
murder charges. Because felony murder is not a lesser
included offense of premeditated murder in Tennessee,
see State v. Burns, 979 S.W.2d 276, 291 (Tenn. 1998);
State v. Cribbs, No. 02C01-9508-CR-00211, 1997 WL
61507, at *18 (Tenn. Crim. App. 1997), aff’d by State v.
Cribbs, 967 S.W.2d 773 (Tenn.), the Supreme Court’s
decisions regarding jury silence as to lesser included
offenses are not directly on point. In this case, the
Court is faced with a situation where the Supreme
Court has not clearly established a rule that a defendant may not be retried for an alternative means if the
jury was silent as to that means in a prior trial. The
disagreement between federal and state courts exemplifies the lack of clarity on this issue. See supra (comparison of federal and state cases). As such, the Court
cannot conclude that the Tennessee Supreme Court unreasonably applied or acted contrary to clearly established law regarding principles of double jeopardy.
As the Supreme Court has instructed, a federal
court is unable to establish a new rule where the Supreme Court “has not broken sufficient legal ground to
establish an asked-for constitutional principle.” Williams, 529 U.S. at 381. Accordingly, the Court finds the
Supreme Court of Tennessee neither unreasonably applied nor acted contrary to clearly established law regarding principles of double jeopardy. Saulsberry’s
§ 2254 Petition as to his double jeopardy claim is DENIED.
B. Time-Barred Insufficient Evidence Claim
Saulsberry’s Amended Petition also claims that
there is insufficient evidence to support a felony mur-

34a
der conviction. (ECF No. 69 at PageID 3689.) Respondent contends this new claim is time-barred. The
Court agrees. Petitioner originally sought review of
the Tennessee Supreme Court’s ruling on September
11, 2006. (ECF No. 1 (referring to State v. Saulsberry,
Nos. 95-07823 & 95-07824, 2006 WL 2596771 (Tenn.).)
The Sixth Circuit construed the document as an application for permission to file a successive 28 U.S.C.
§ 2254 petition. In re Saulsberry, No. 07-5570, (6th Cir.
May 8, 2007). The Supreme Court of Tennessee declined further review of the double jeopardy issue on
January 29, 2007. State v. Saulsberry, No. W200500316-SC-R11-CD, 2007 Tenn. LEXIS 101 (Jan. 29,
2007). In March 2010, a jury convicted Saulsberry of
first-degree felony murder during the perpetration of a
robbery and first-degree felony murder during the perpetration of a burglary. State v. Saulsberry, W201001326-CCA-R3-CD, 2011 Tenn. Crim. App. LEXIS 253,
at *1 (April 7, 2011). The Tennessee Court of Criminal
Appeals affirmed the judgment on April 7, 2011. Id. at
*16. The Supreme Court of Tennessee declined further
review on August 25, 2011. State v. Saulsberry, No.
W2010-01326-SC-R11-CD, 2011 Tenn. LEXIS 802
(Aug. 25, 2011). Petitioner’s conviction became final 90
days later, on November 23, 2011. AEDPA’s one-year
statute of limitations, therefore, expired on November
23, 2012. Thus, Petitioner’s January 13, 2017 amended
claim is over four years late.
Saulsberry’s insufficient evidence claim is also not
saved because it does not relate back to the original petition pursuant to Rule 15 and because he makes no argument that his time-barred claim should be equitably
tolled. Saulsberry’s original petition sought relief under the Double Jeopardy Clause based on the multiple
charges against him. (See ECF No. 1.) The petition

35a
did not contend the evidence for any of these convictions was insufficient. The operative facts of the original petition, therefore, only concerned the procedure
between Petitioner’s first trial and upcoming trial, but
not evidence. Accordingly, the new claim for insufficient evidence does not relate to the original petition.
Moreover, Saulsberry makes no argument that his
time-barred claim should be equitably tolled. (See ECF
Nos. 69 & 73.) Accordingly, the Court finds Saulsberry’s insufficient evidence claim time-barred, and thus
DISMISSES this claim with prejudice.
IV. APPEAL ISSUES
Twenty-eight U.S.C. § 2253(a) requires the district
court to evaluate the appealability of its decision denying a § 2254 petition and to issue a certificate of appealability (“COA”) “only if the applicant has made a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2); see also Fed. R. App. P. 22(b).
No § 2254 petitioner may appeal without this certificate.
The COA must indicate the specific issue(s) which
satisfy the required showing. 28 U.S.C. §§ 2253(c)(2) &
(3). A “substantial showing” is made when the movant
demonstrates that “reasonable jurists could debate
whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that
the issues presented were adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537
U.S. 322, 336 (2003) (citation and internal quotation
marks omitted); see also Henley v. Bell, 308 F. App’x
989, 990 (6th Cir. 2009) (per curiam) (same). A COA
does not require a showing that the appeal will succeed.
Miller-El, 537 U.S. at 337; Caldwell v. Lewis, 414 F.
App’x 809, 814-15 (6th Cir. 2011) (same). Courts should

36a
not issue a COA as a matter of course. Bradley v. Birkett, 156 F. App’x 771, 773 (6th Cir. 2005).
There can be no question that the issues raised in
Saulsberry’s § 2254 Petition are meritless for the reasons previously stated. Because any appeal by Saulsberry on the issues raised in his § 2254 Petition does
not merit review, the Court DENIES a certificate of
appealability.
The Sixth Circuit has held that the Prison Litigation Reform Act of 1995, 28 U.S.C. §§ 1915(a)-(b), does
not apply to appeals of orders denying § 2254 motions.
Kincade v. Sparkman, 117 F.3d 949, 951 (6th Cir. 1997).
Rather, to appeal in forma pauperis in a § 2254 case,
and thereby avoid the appellate filing fee required by
28 U.S.C. §§ 1913 and 1917, the prisoner must obtain
pauper status pursuant to Federal Rule of Appellate
Procedure 24(a). Id. at 952. Rule 24(a) provides that a
party seeking pauper status on appeal must first file a
motion in the district court, along with a supporting affidavit. Fed. R. App. P. 24(a)(1). However, Rule 24(a)
also provides that if the district court certifies that an
appeal would not be taken in good faith, or otherwise
denies leave to appeal in forma pauperis, the prisoner
must file his motion to proceed in forma pauperis in
the appellate court. See Fed. R. App. P. 24(a) (4)-(5).
In this case, for the same reasons the Court denies
a certificate of appealability, the Court determines that
any appeal would not be taken in good faith. It is therefore CERTIFIED, pursuant to Federal Rule of Appellate Procedure 24(a), that any appeal in this matter

37a
would not be taken in good faith. Leave to appeal in
forma pauperis is DENIED.1
IT IS SO ORDERED, this 21st day of September, 2017.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT COURT JUDGE

1

If Saulsberry files a notice of appeal, he must also pay the
full $505 appellate filing fee or file a motion to proceed in forma
pauperis and supporting affidavit in the Sixth Circuit Court of
Appeals within thirty days.

39a
APPENDIX C
IN THE SUPREME COURT OF TENNESSEE
AT JACKSON
Criminal Court for Shelby County
Nos. 95-07823 & 95-07824
No. W2005-00316-SC-R11-CD
STATE OF TENNESSEE
v.
ANTONIO SAULSBERRY

Filed January 29, 2007
ORDER
Upon consideration of the application for permission to appeal filed on behalf of Antonio Saulsberry and
the record before us, the application is denied.
PER CURIAM

41a
APPENDIX D
IN THE COURT OF CRIMINAL APPEALS OF TENNESSEE
AT JACKSON
Assigned on Briefs October 4, 2005
STATE OF TENNESSEE
v.
ANTONIO SAULSBERRY
Appeal from the Criminal Court for Shelby County
No. 95-07823 & 95-07824 Joseph B. Dailey, Judge
No. W2005-00316-CCA-R9-CD
Filed September 11, 2006
A Shelby County jury convicted the defendant of first
degree premeditated murder, especially aggravated
robbery and conspiracy to commit aggravated robbery.
This Court reversed the defendant’s conviction for first
degree premeditated murder on direct appeal and remanded for a retrial on the defendant’s two charges of
felony murder. Prior to his retrial, the defendant filed
a motion stating that his prosecution for the felony
murder charges is a violation of the principles of double
jeopardy. The trial court denied the defendant’s motion. The defendant now brings an interlocutory appeal
to determine whether the principles of double jeopardy
bar a trial on the two felony murder charges. We find
that a retrial on the felony murder charges would not
constitute double jeopardy and affirm the decision of
the trial court.

42a
Tenn. R. App. P. 9 Interlocutory Appeal;
Judgment of the Trial Court Affirmed.
JERRY L. SMITH, J., delivered the opinion of the court,
in which DAVID H. WELLES and ALAN E. GLENN, JJ.,
joined.
* * *
OPINION
We repeat the underlying facts as recited by this
Court on the defendant’s direct appeal:
The record in this case reveals a cast of five
criminal actors: Claude Sharkey, Clashaun
(“Shaun”) Sharkey, Kevin Wilson, Defendant
Franklin Howard, and Defendant Antonio
Saulsberry. Defendant Saulsberry was employed at the restaurant prior to January 28,
1995, the date of this incident. According to the
proof at trial, Claude, Shaun, Wilson, and
Saulsberry discussed robbing T.G.I. Friday’s
restaurant (“Friday’s”) the day before the
crime. In the early morning hours of January
28, 1995, after the restaurant closed business
for the prior night, Claude, Shaun, Wilson, and
Howard drove to Friday’s and waited in the
back parking lot.
Friday’s dishwasher John Wong exited the
restaurant through its back door to dispose of
the night’s garbage, and the perpetrators used
this opportunity to enter the building. Wong
heard one man say, “Shoot the mother …,” referring to Wong. He was pushed from behind

43a
with a gun and ordered to lie down on the
ground, and he complied.
Claude, Shaun, Wilson, and Howard continued through the back area of the restaurant
toward the manager’s office, where they encountered bartender Preston Shea. Shea saw
four armed men with ski masks walking toward
him and screaming. He was knocked to the
ground by one perpetrator outside the manager’s office. At least two men entered the office
and screamed, “Give me the money,” and
“Where’s the f_king money.” Shea responded
by holding up his wallet and pleading, “Please,
God, take the money and go.” He heard bags of
money being passed from person to person
above his head and heard one man say, “Shoot
his ass.” Shea then heard a shot from the manager’s office, where the perpetrators had already taken the money from the victim, Gene
Frieling.
Wong, remaining on the floor during the
disturbance, also heard one of the perpetrators
demand, “Give me the money—give me the
money,” and he heard Frieling say, “Take it,
take it, take it.” Wong heard “[o]ne explosion
then two—the two that I heard, it was like two
in one—the swiftness of it that followed behind—one behind the other.” Then Frieling
said, “Jesus Christ, he shot me, he shot me.”
Shea had been repeatedly kicked during
this episode, and as the men left the office, he
was shot three times—twice in the leg and once
in his lower back, through his bladder and intestines. He then crawled into the office and

44a
called 911, but he was too injured to stay with
the telephone. As he fell back to the floor,
Wong took the telephone and finished the 911
call.
Jessica Hoard, a server at Friday’s, also
testified for the State. Hoard was the only
other employee still present on the morning of
January 28, and she was in the dining room of
the restaurant when the perpetrators arrived.
One of the men ordered her to walk into the
kitchen and commanded, “Get on the floor before I shoot you.” She heard one person say,
“Where’s the money,” a couple of times, and
she then heard at least two gunshots. When
she believed the perpetrators were gone and
she could safely stand up, Hoard helped John
Wong attend to the wounded Frieling and
Shea.
Because Frieling was only barely
breathing, the two uninjured employees decided to lift him from a prone position to an upright position. Frieling remained in this sitting, slumped posture until he was found by police and determined dead. An autopsy revealed
that the cause of death was a gunshot wound to
the heart.
State v. Antonio L. Saulsberry, No. 02C01-9710-CR00406, 1998 WL 892281, at *2-3 (Tenn. Crim. App., at
Jackson, Dec. 21, 1998), Rev’d by State v. Howard,
30 s.W.3d 271 (Tenn. 2000).
The Shelby County Grand Jury indicted the defendant and his co-defendant, Franklin Howard, in July
of 1995 on premeditated murder, murder committed in
the perpetration of a robbery, murder committed in the
perpetration of a burglary, especially aggravated rob-

45a
bery, and conspiracy to commit a felony. At the conclusion of a jury trial, they were convicted of first degree
premeditated murder, especially aggravated robbery
and conspiracy to commit aggravated robbery. The jury sentenced the defendants to life imprisonment for
the premeditated murder convictions and the trial
court sentenced the defendant as a Range II offender
to forty years for especially aggravated robbery and
ten years for conspiracy. The trial court sentenced
Howard as a Range I offender to twenty-five years for
especially aggravated robbery and six years for conspiracy. In both cases the trial court ordered that all
sentences, including the life imprisonment, be served
consecutively.
Both the defendant and Howard then appealed
their convictions and sentences to this Court. A panel
reversed the defendant’s conviction for premeditated
murder stating, “Defendant Saulsberry’s conviction for
first degree murder is not supported by sufficient evidence, and such conviction is therefore reversed and his
case is remanded for a new trial on the charge of felony
murder as alleged in Counts 2 and 3 of the indictment.”
Antonio L. Saulsberry, 1998 WL 892281 at *18. The
panel affirmed the especially aggravated robbery and
conspiracy convictions for both defendants, as well as,
Howard’s murder conviction. Id.
The defendant did not appeal this Court’s decision
to the Tennessee Supreme Court. Instead, he filed a
post-conviction petition attacking his robbery and conspiracy convictions. Antonio L. Saulsberry v. State,
No. W2002-02538-CCA-R3-PC, 2004 WL 239767, at *1
(Tenn. Crim. App., at Jackson, Feb. 6, 2004), perm. app.
denied, (Tenn. June 1, 2004). The defendant argued
that his counsel at trial was ineffective and he had been
denied second-tier review. Id. The post-conviction

46a
court denied the defendant’s petition, and he appealed
to this Court. Id. We dismissed the defendant’s appeal
because his petition was filed outside the one year statute of limitations. Id. at *4.
In the meantime, Howard appealed this Court’s affirmance of his convictions to our supreme court. On
appeal, our supreme court reversed Howard’s conviction of first degree premeditated murder because the
jury had not been instructed on “the natural and probable consequences rule.” State v. Howard, 30 S.W.3d
271, 277-78 (Tenn. 2000). Upon remand, Howard was
convicted of first degree premeditated murder and two
modes of felony murder. State v. Franklin Howard,
No. W2002-01680-CCA-R3-CD, 2004 WL 2715346, at *4
(Tenn. Crim. App., at Jackson, Nov. 18, 2004), perm.
app. denied, (Tenn. Mar. 21, 2005) (not for citation).
The trial court merged all the murder verdicts into one
and sentenced Howard to life in prison. Id. Howard
then appealed his convictions from his trial on remand.
On appeal, this Court vacated the felony murder convictions on the basis of double jeopardy. Id. at *11-12.
We then affirmed Howard’s conviction for premeditated murder and his consecutive sentences. Id. at *16.
Following this Court’s decision on Howard’s appeal
from remand, on December 17, 2004, the defendant filed
a Motion to Dismiss Prosecution Based on Double
Jeopardy. The trial court conducted a hearing on January 10, 2005 and denied the motion. On January 21,
2005, the defendant filed a Motion for a Rule 9 Interlocutory Appeal. The trial court granted the motion, and
this Court did as well and this is the case that is now on
appeal.

47a
ANALYSIS
The defendant argues on appeal that a retrial of the
defendant on felony murder charges would violate the
state and federal double jeopardy provisions. The
Double Jeopardy Clause[s] of both the United States
and Tennessee Constitutions state[ ] that no person
shall be twice put in jeopardy of life or limb for the
same offense. U.S. Const. amend. 5; Tenn. Const. art. I,
§ 10. The clause has been interpreted to include the following protections: “It protects against a second prosecution for the same offense after acquittal. It protects
against a second prosecution for the same offense after
conviction. And it protects against multiple punishments for the same offense.” North Carolina v. Pearce,
395 U.S. 711, 717 (1969); State v. Phillips, 924 S.W.2d
662, 664 (Tenn. 1996).
The defendant bases his argument on this Court’s
decision in State v. Franklin Howard, No. W200201680-CCA-R3-CD, 2004 WL 2715346 (Tenn. Crim.
App., at Jackson, Nov. 18, 2004), perm. app. denied,
(Tenn. March 21, 2005) (not for citation). In Franklin
Howard, we addressed Howard’s direct appeal from his
trial upon remand. Upon remand, Howard was convicted of first degree premeditated murder and felony
murder. Franklin Howard, 2004 WL 2715346, at *1.
At his trial upon remand, Howard was tried for firstdegree premeditated murder, felony murder committed
in the perpetration of a robbery and felony murder in
the perpetration of a burglary. Id. at *11. Howard was
convicted for all three. Id. On this direct appeal from
these convictions, one of his issues was whether the
second trial should have been barred due to double
jeopardy concerns. Id. at *1. We stated that jeopardy
attached for the felony murder charges in the first trial
and, therefore, Howard’s subsequent convictions for

48a
the two felony murder charges must be vacated because of a double jeopardy problem. Id. at *12.
The defendant argues that because he and Howard
were originally tried together by the same jury and
subject to the same jury instructions, the same analysis
should apply to his trial upon remand. He argues that
jeopardy also attached with regard to the two felony
murder charges in his original trial. However, the
Tennessee Supreme Court has designated Franklin
Howard, as “Not for Citation.” Rule 4(F)(1) of the
Rules of the Supreme Court of Tennessee states, “If an
application for permission to appeal is hereafter denied
by this Court with a “Not for Citation” designation, the
opinion of the intermediate appellate court has no precedential value.” Therefore, we are unable to rely upon
this Court’s analysis with regard to the double jeopardy questions raised in Franklin Howard, even
though the defendant was tried in the same original trial.
In the defendant’s direct appeal, this Court included language in a footnote regarding whether he could
be tried on the felony murder charges. The panel stated:
Nor, however, can we agree that Saulsberry
cannot be retried for felony murder, although
this issue is not before us. The jury was strictly instructed to cease deliberations upon finding Defendants guilty of premeditated murder.
When the jury found them guilty of premeditated murder, it did not render any further
verdicts on homicide charges. This does not
equate to an acquittal. State v. Burns, [979]
S.W.2d [276] Appendix (Tenn. 1998).

49a
Antonio L. Saulsberry, 1998 WL 892281, at *4 n.4. In
Howard’s direct appeal to our supreme court this issue
of sequential jury instructions leading to potential double jeopardy issues was addressed in a footnote. Our
supreme court stated:
While it was not error for the trial court to deliver sequential jury instructions, see Harris v.
State, 947 S.W.2d 156, 175 (Tenn. Crim. App.
1996), we have previously urged trial courts to
allow juries to consider all theories of firstdegree murder. See State v. Cribbs, 967 S.W.2d
773, 787-88 (Tenn. 1998[)]; Carter v. State, 958
S.W.2d 620, 624-25 n.6 (Tenn. 1997). We are
compelled to emphasize this point again: a trial
court should instruct a jury to render a verdict
as to each count of a multiple count indictment
which requires specific jury findings on different theories of first-degree murder. If the jury
does return a verdict of guilt on more than one
theory of first-degree murder, the court may
merge the offenses and impose a single judgment of conviction. See State v. Addison, 973
S.W.2d 260, 267 (Tenn. Crim. App. 1997). The
benefits of instructing the jury in this manner
are important. First, the double jeopardy
problem of retrying a defendant after a subsequent appellate opinion reverses a conviction
as unsupported by evidence is precluded. Second, the State will have a basis to protect other
convictions to which it may be entitled. Third,
in light of our decision in State v. Middlebrooks,
840 S.W.2d 317 (1992), a jury verdict on each
charged offense will allow the State to use the
felony murder aggravator as an aggravating

50a
circumstance in sentencing. See State v. Hall,
958 S.W.2d 679, 692-93 (Tenn. 1997).
Howard, 30 S.W.3d at 274-75 n.4. This language in part
led to this Court’s analysis of Howard’s felony murder
conviction upon remand in Franklin Howard. This
Court was attempting to solve the double jeopardy
“problem.” Franklin Howard, 2004 WL 2715346. at
*12.
Despite the reference to the potential double jeopardy problem in this situation, our supreme court, as
well as this Court, has allowed defendants to be retried
on charges that were not reached by the jury when sequential instructions on the charges were given. State
v. Madkins, 989 S.W.2d 697, 699 (Tenn. 1999); State v.
Burns, 979 S.W.2d 276, 291 (Tenn. 1998) (attaching this
Court’s direct appeal opinion as an appendix); State v.
John E. Parnell, No. W1999-00562-CCA-R3-CD, 2001
WL 124526, at *6 (Tenn. Crim. App. at Jackson, Feb. 6,
2001); State v. David William Smith, No. 03C01-9809CR-00344, 2000 WL 210378, at *6 (Tenn. Crim. App. at
Knoxville, Feb. 24, 2000).
In the defendant’s original trial, the trial court instructed the jury to begin their consideration with first
degree premeditated murder. If the jury did not find
the defendant guilty of premeditated murder, they
were then to move on to the felony murder charges. At
the original trial, the jury found the defendant of first
degree premeditated murder. Therefore, the presumption is that the jury never considered whether the defendant was guilty of either of the felony murder
charges. As stated above, there are no double jeopardy
concerns where the jury instructions are given sequentially and there is a presumption that the jury followed
the instructions given by the trial court. See Madkins,

51a
989 S.W.2d at 699; Burns, 979 S.W.2d at 291; John E.
Parnell, 2001 WL 124526, at *6; David William Smith,
2000 WL 210378, at *6. Therefore, we conclude that
there would be no double jeopardy concerns with a retrial of the defendant on the felony murder charges.
For this reason, this issue is without merit.
CONCLUSION
For the foregoing reasons, we affirm the judgment
of the trial court.
JERRY L. SMITH, JUDGE

53a
APPENDIX E
IN THE CRIMINAL COURT OF TENNESSEE
THIRTIETH JUDICIAL DISTRICT AT MEMPHIS
DIVISION 5
No. 95-07822
STATE OF TENNESSEE
v.
ANTONIO SAULSBERRY
MONDAY, JANUARY 10, 2005
Court met pursuant to adjournment, the Honorable
JOSEPH B. DAILEY. Judge of Division X Presiding;
whereupon the following proceedings were had to wit:
MURDER FIRST DEGREE, MURDER
IN PERPETRATION OF A FELONY
Comes the Attorney General on the part of the State
and the defendant in proper person and by counsel of
record, MR. CHARLES GILCHRIST; whereupon there
comes on to be heard the defendant’s MOTION TO
DISMISS PROSECUTION BASED ON DOUBLE
JEOPARDY, which MOTION, having been heard and
fully considered by the Court is DENIED.
JOSEPH B. DAILEY
JUDGE

54a
IN THE CRIMINAL COURT OF TENNESSEE
THIRTIETH JUDICIAL DISTRICT AT MEMPHIS
DIVISION 5
No. 95-07822
STATE OF TENNESSEE
v.
ANTONIO SAULSBERRY
Filed January 18, 2005
ORDER DENYING DEFENDANT’S MOTION
TO DISMISS PROSECUTION BASED
ON DOUBLE JEOPARDY
This cause came to be heard on January 10, 2005
upon the Motion to Dismiss filed by the Defendant, the
Response of the State of Tennessee, statements of
council for Defendant and for the State and upon all of
the record in this cause.
FROM ALL OF WHICH IT APPEARS TO THE
COURT AS FOLLOWS:
The defendant in this cause, Antonio Saulsberry,
was convicted by a jury of premeditated first-degree
murder, especially aggravated robbery and conspiracy
to commit aggravated robbery on February 14, 1997.
The defendant was also tried for the offense of
murder fist degree during perpetration of a robbery
(felony murder). As was customary at the time, the jury was instructed to cease deliberation upon reaching a

55a
verdict in the first count of the murder indictment (pre
- meditated murder), rather than returning verdicts in
all murder counts, which would have been merged by
the trial court.
On appeal, the court of Criminal Appeals, reversed
the defendant’s conviction for pre - meditated murder,
affirmed the convictions for aggravated robbery and
conspiracy, as well as their sentences, and remanded
the felony murder counts for retrial. State Vs. Saulsberry, 1998WL89228l.
The Court specifically stated that Saulsberry could
be retried for felony murder since the trial court’s direction to the jury prevented either an acquittal or a
conviction. Saulsberry (supra) at FN4 on page 3, citing State Vs. Burns, 979SW2d 276 (appendix).
The appendix of the Burns case, (above), which is a
decision of the Tennessee Supreme Court contains the
text of the Court of Criminal Appeals decision, State vs.
Burns, C. C. A. No. 02COI - 9605 - CR - 00170, contains
a thorough analysis of the question of double jeopardy
applicability, to cases or counts that were terminated
without either an acquittal, an implied acquittal or a
conviction.
This opinion cites both the United States Supreme
Court and the Supreme Court of Tennessee for the
proposition that matters returned for trial due to “errors in the proceedings” do not invoke double jeopardy
prohibitions. Burk Vs. United States, 437 US 1 (1978).
State Vs. Hutcherson, 790 SW2d 532 (Tenn. 1990).
In analyzing the matter, the Burns Court of Criminal Appeals opinion likened the Court’s instructions to
statutory prohibitions against the return of verdicts in
counts which are alternative theories of guilt, rather

56a
than separate crimes. Again, this is clearly not the intention of the Fifth Amendment of the Constitution.
The United States Supreme Court spoke on implied acquittals, stating that there is a double jeopardy
bar to the retrial of proceedings in which no verdict
was returned, but where the jury had been given “a full
opportunity to return a verdict” Price Vs. Georgia, 398
U. S. 323 (1920).
In the case at hand, the jury clearly did not have
the opportunity to return a verdict as a result of the
Court’s instructions.
The case at hand is not a matter wherein the State
attempted to “reserve” or “hold back” a charge for later
use against the defendant. The Saulsberry Court (supra at p. 5) mentions that the record contains evidence,
which if accredited by the jury, would support a felony
murder conviction.
This Court is of the opinion that the decision in
Saulsberry, and the analysis on which it was based
(Burns et al), more correctly describes the situation in
the case at hand. In essence, manifest necessity exists
for the retrial of defendant Saulsberry, on the Felony
murder charge.
IT IS THEREFORE ORDERED ADJUDGED
AND DECREED:
1) That Defendant’s Motion to Dismiss Prosecution
Based on Double Jeopardy (12-17-04) is hereby denied.
/s/ Joseph B. Dailey
Judge, Division 5

57a
Approved:
/s/ J. R. Carter Jr.
Assistant District Attorney
/s/ [illegible]
Attorney of Defendant [as to form]

